                             Department of Energy
                                Washington, DC 20585

                                   December 29, 2009


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                  INFORMATION: Special Inquiry on "Review of Allegations Involving
                          Potential Misconduct by a Senior Office of Environmental
                          Management Official" (OIG No. S09IS024)

INTRODUCTION

In September 2009, the Office of Inspector General (OIG) received multiple allegations concerning
improprieties by a senior official with the Office of Environmental Management. The allegations
involved potential violations of political activity restrictions, lack of impartiality in performing
official duties, misuse of position, and other related misconduct. Specific allegations concerned:

   1. Orchestrating a $9 million American Recovery and Reinvestment Act of 2009 (Recovery
      Act) payment to certain Historically Black Colleges and Universities (HBCUs) in return for
      something of value on behalf of a Member of Congress;

   2. Asking Federal officials at the U.S. Department of Energy’s (Department) Savannah River
      Site (Savannah River) in South Carolina to arrange meetings with contractor employee
      union representatives in violation of the National Labor Relations Act;

   3. Ordering Savannah River Federal and contractor officials to access subcontractor personnel
      files for data mining of demographic information in violation of the procedures for
      protecting personally identifiable information;

   4. Directing Savannah River contractor officials to conduct Recovery Act-related job fairs in
      those counties represented by a Member of Congress in violation of the Hatch Act and
      Standards of Ethical Conduct; and,

   5. Directing Savannah River contractor personnel to hire three specific individuals contrary to
      contract law principles.

The OIG initiated a fact-finding inquiry into these matters. Toward this end, we interviewed over
80 current and former Department Federal and contractor employees in South Carolina and
Washington, D.C. We analyzed large volumes of documents, including over 150,000 emails, and
we identified and reviewed applicable Federal and Department regulations. During the review, a
number of additional complaints came to our attention. Several were incorporated into this
inquiry, while others will undergo additional review and action will be taken, as appropriate.
                                                  ii

RESULTS OF SPECIAL INQUIRY

The facts developed during our review did not substantiate the allegation regarding HBCUs.

With respect to the second and third allegations, witnesses expressed differing views about the
appropriateness of Federal officials communicating with contractor employee union representatives
and accessing subcontractor personnel files. Because of the legal implications stemming from the
differing views, we believe these matters should be coordinated with the Department’s Office of
General Counsel.

Regarding the two remaining issues, alleged direction to conduct job fairs and to hire specific
individuals, we received testimony which supported aspects of the allegations; however, other
witnesses provided contradictory testimony. We could not identify evidence that provided greater
credibility for any one version of these events. For example, senior Federal Savannah River
personnel and certain contractor officials asserted that the Environmental Management official
exceeded authority by directing additional job fairs in selected counties and that there was a
political overtone to this direction. However, other Federal and contractor officials stated that no
such direction had been given. Senior Federal Savannah River personnel and certain contractor
officials also claimed to have been directed to hire specific individuals for Recovery Act positions.
Other individuals disputed that such direction occurred.

In short, regarding many of the events and activities which were key to the allegations, witnesses’
testimony was conflicting and irreconcilable. Perceptions, interpretations and recollections of these
events as well as views on the intent of the individuals involved varied dramatically.

WORK ATMOSPHERE

Our inquiry focused on identifying the facts surrounding the primary allegations concerning
operations at Savannah River. In doing so, we were mindful of the fact that Savannah River, a
multi-billion dollar Federal enterprise employing 11,000 personnel, is responsible for a number of
complex, technically-challenging and critically important missions. Further, Savannah River has
been provided well in excess of $1 billion in additional funding and enhanced responsibilities as
part of the Department of Energy’s role in the Recovery Act.

It is vital that the Site be managed by both Headquarters and local officials in a manner which
ensures public confidence and credibility. Yet, we encountered witnesses who testified that there
was confusion as to lines of authority, responsibility and accountability; poor internal
communications; a lack of coordination; failure to share essential information among key officials;
and, insufficient follow-up on critically important issues and decisions. These factors appeared to
have contributed to an unusual level of distrust and acrimony. Some witnesses described their
colleagues and the actions of their colleagues in highly personal and often derogatory terms. Of
perhaps the greatest concern, were the issues raised about racism and reverse discrimination.
In summary, testimony provided by many of the officials we interviewed portrayed an operating
atmosphere inconsistent with the objective of maintaining the credibility of, and public confidence
in, Environmental Management activities and the Savannah River Site.
                                                 iii

RECOMMENDATIONS

Because of the major operational responsibilities facing Environmental Management and Savannah
River, Department management should take prompt action to address the reported issues. We
recommend that the Under Secretary:

   1. Conduct an independent evaluation of the human relations climate at both Environmental
      Management’s Headquarters and Savannah River offices and develop an action plan to
      address identified issues.

   2. Initiate an aggressive program to facilitate conflict resolution and promote collaboration and
      communication between Environmental Management Headquarters officials and Savannah
      River Site representatives.

   3. Implement procedures to ensure a common understanding among all Environmental
      Management Headquarters and Savannah River employees as to the mission, goals and
      objectives of the Recovery Act at the Department’s Savannah River Site.

   4. Ensure Federal personnel understand the roles, responsibilities and lines of authority for
      interacting with contractor, subcontractor and contractor employee union officials.

   5. In coordination with the Department’s Office of General Counsel:

         •   Enhance protocols for resolving conflicting legal guidance between General Counsel
             officials at Headquarters and Savannah River (e.g., communications between Federal
             officials and contractor employee union representatives).

         •   Determine the propriety of Federal officials accessing subcontractor personnel files
             pertaining to recruitment efforts under the Recovery Act.

This transmittal memorandum also will serve as a public Executive Summary of this report. The
detailed results of this Special Inquiry, which follow, are not public. Any request for release of the
details should be handled by the Office of Inspector General in accordance with the Freedom of
Information Act (Title 5, U.S.C., Section 552) and the Privacy Act (Title 5, U.S.C., Section 552a).

cc: Deputy Secretary
    Under Secretary of Energy
    Chief of Staff
    Assistant Secretary for Environmental Management
    General Counsel
    Senior Advisor to the Secretary of Energy
     for Recovery Act Implementation
